audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants
	Chicago Housing Authority
	Chicago, Illinois
GR-50-99-010
May 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Chicago Housing Authority (CHA).  The purpose of the grants is to enhance community policing.  The CHA was awarded a total of $2,185,326 to hire 20 new police officers and redeploy 12 existing full-time officers from administrative duties to community policing.  We reviewed the CHA's compliance with eight essential grant conditions and found the grantee's local match and implementation of community policing activities to be acceptable.  However, we identified weaknesses in other areas as summarized below.  As a result, we are questioning $322,429 and recommending an additional $847,817 be put to better use.3

The CHA did not maintain the total number of officers required during the period reviewed.  This condition existed because the CHA did not fill vacancies as they occurred. 
	The CHA assigned three existing employees to grant positions without backfilling their former positions.
	The CHA did not fill all the officer and civilian positions awarded and did not retain hired officers for the length of the grant.
	Status reports were either not accurate, not timely, or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 



Footnote
3.    The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.